<html>
<title> - UNITED STATES-JORDAN DEFENSE COOPERATION ACT OF 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




          UNITED STATES-JORDAN DEFENSE COOPERATION ACT OF 2014

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                            
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                      
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 5648

                               __________

                           NOVEMBER 19, 2014

                               __________

                           Serial No. 113-222

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                              
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-456 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 
                          
                          
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--resigned 5/
    20/14 
SEAN DUFFY, Wisconsin--
    added 5/29/14 
CURT CLAWSON, Florida
    added 7/9/14

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida--resigned 1/27/  BRADLEY S. SCHNEIDER, Illinois
    14 deg.                          JOSEPH P. KENNEDY III, 
DOUG COLLINS, Georgia                    Massachusetts
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida<greek-l>        LOIS FRANKEL, Florida
LUKE MESSER, Indiana--5/20/14 
    noon deg.
SEAN DUFFY, Wisconsin--5/
    30/14 noon deg.
CURT CLAWSON, Florida--
    added 7/9/14 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 5648, To improve defense cooperation between the United 
  States and the Hashemite Kingdom of Jordan.....................     2

                                APPENDIX

Markup notice....................................................    14
Markup minutes...................................................    15
Markup summary...................................................    16
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    17

 
          UNITED STATES-JORDAN DEFENSE COOPERATION ACT OF 2014

                              ----------                              


                      WEDNESDAY, NOVEMBER 19, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. Subcommittee will come to order. I know 
that we will have votes pretty soon, so it is going to be a 
little tricky to do all this, but we can.
    Pursuant to notice, I call up the bill, H.R. 5648, the 
United States-Jordan Defense Cooperation Act of 2014, for 
purposes of markup. Without objection, it will be considered as 
read, and sections 1 through 3, the portions within this 
committee's jurisdiction, are open for amendment at any point.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    
    Ms. Ros-Lehtinen. After opening remarks by me and the 
ranking member, I will be glad to recognize any member seeking 
recognition to speak on this bill.
    As we know, the Hashemite Kingdom of Jordan is one of the 
greatest allies in the Middle East. In 1996, the United States 
recognized the Kingdom as a major non-NATO ally. In 2000, the 
United States and Jordan signed a free trade agreement that 
went into effect in 2001. In 2010, the U.S. and Jordan signed a 
$275 million compact through the Millennium Challenge 
Corporation.
    Not only have the bilateral ties between both nations been 
strong, but Jordan continues to be a large player in regional 
efforts. In the midst of the conflict in Syria and Iraq, Jordan 
has played a central role to the international response to both 
humanitarian crises. The United Nations High Commissioner for 
Refugees estimates that more than 600,000 Syrians have 
registered as refugees in Jordan.
    In addition, the Kingdom estimates that another 800,000 
refugees--listen to those numbers--have been assimilated into 
local communities outside the refugee camps, bringing the total 
of Syrian refugees in Jordan to 1.4 million people. This amount 
is in addition to the other refugees that Jordan has already 
taken through the years from the West Bank and Iraq. The 
population influx has put a severe strain on the infrastructure 
and the economy of Jordan that is dangerously unsustainable.
    In June, Ranking Member Ted Deutch and I had the pleasure 
of visiting Jordan to witness firsthand the challenges that the 
Kingdom is facing. The message that our delegation gave the 
King was simple: The United States Congress supports Jordan, we 
will continue to help ensure that Jordan remains stable, 
because by providing stability, Jordan is an essential piece of 
the United States' Middle East strategy and will continue to 
play an important role in the many challenges that we face, 
such as fighting terrorism from ISIL, stability in Iraq, 
playing a role between the Israelis and the Palestinians.
    This year marks the 20th anniversary of the peace treaty 
between Jordan and Israel, and I hope that both nations can 
work together to calm tensions currently in the region. 
However, we must analyze the current situation on the ground 
carefully and must be proactive in supporting our allies. We 
cannot wait for the ISIL threat to directly arrive to Jordan's 
doorstep for Congress to act. More needs to be done to bolster 
the Kingdom's ability.
    And I have more to say, but I know that time is short, so I 
will now turn to my good friend, Congressman Ted Deutch, our 
ranking member, for his opening remarks.
    Mr. Deutch. Thank you, Madam Chairman. I appreciate the 
opportunity. I know how hard you worked on this legislation. 
This is a bill that clearly highlights the importance of 
regional cooperation with Jordan. And because I know we are 
short on time and out of respect for our colleagues, I would 
like to give them the opportunity to speak, I will yield back 
the balance of my time.
    Ms. Ros-Lehtinen. Thank you very much. I should have 
yielded way before also. What was I thinking?
    Mr. Chabot of Ohio is recognized.
    Mr. Chabot. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. I get choked up just thinking about you, 
Steve.
    Mr. Chabot. I appreciate that, and I will be very brief. I 
just want to commend you for bringing this legislation before 
the subcommittee today. Jordan is a longtime friend and ally of 
the United States and sits in a very dangerous part of the 
world. Over the years, it has taken in refugees from throughout 
the region, whether it be the Palestinians or Iraqis or most 
recently Syrians who have fled the hostilities in that 
beleaguered nation.
    This measure recognizes those realities and reasserts our 
support for a continued strong alliance with our Jordanian 
ally. It is a timely measure, and I would urge its adoption. 
Thank you for bringing it forward.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman.
    The United States and the Kingdom of Jordan have a long and 
close collaborative relationship. It has promoted our national 
security and regional stability for many years. Jordan is a 
major non-NATO ally and a nonpermanent member of the U.N. 
Security Council. It has been the recipient of funding from 
several U.S. foreign assistance programs over decades. They are 
an essential player in the region from our point of view, 
obviously. I commend the work you have done, and I would ask 
that the balance of my statement be entered into the record in 
full.
    Ms. Ros-Lehtinen. Without objection, all members' 
statements will be made a part of the record.
    Senator Cotton is recognized.
    Mr. Cotton. I yield back the balance of my time in a manner 
very unfitting of a Senator-elect.
    Ms. Ros-Lehtinen. I know. You will rue the day. You will 
never do that again.
    Mr. Connolly.I have never heard a Senator do that, Madam 
Chairman, ever.
    Ms. Ros-Lehtinen. Unprecedented.
    And so, Mr. Kinzinger, we will go to you then, sir.
    Mr. Kinzinger. I have no statement. I also yield back.
    Ms. Ros-Lehtinen. Okay. Thank you.
    Mr. DeSantis.
    Mr. DeSantis. Yield back to you, Madam Chair.
    Ms. Ros-Lehtinen. Dr. Yoho.
    Mr. Yoho. I yield back also.
    Ms. Ros-Lehtinen. Oh, boy, oh, boy. The pressure is on, Mr. 
Schneider. Please speak.
    Mr. Schneider. Thank you. I will just add the comments and 
associate with what has already been said. Jordan is a key ally 
in a critical region, and we need to make sure they have the 
support they need to deal with the many crises they face. Thank 
you for calling this hearing and introducing this legislation.
    Ms. Ros-Lehtinen. Thank you, sir. We will miss you. But we 
still are not done. We will be meeting once again. Thank you, 
Brad.
    And Ms. Meng is recognized.
    Ms. Meng. I have no statement, Madam Chairwoman. I yield 
back my time.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Vargas.
    Mr. Vargas. As a lowly freshman, I will yield back.
    Ms. Ros-Lehtinen. Well, thank you so much. Oh, I am so 
sorry, Mr. Higgins.
    Mr. Higgins. I just walked in.
    Ms. Ros-Lehtinen. Oh, I apologize. Thank you, Mr. Higgins.
    Mr. Higgins. I will yield back.
    Ms. Ros-Lehtinen. All right. Thank you.
    So no other members seek recognition to speak on the bill. 
Are there any amendments? Hearing no further amendments, the 
Chair moves to report the bill favorably to the full committee.
    All in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it. The motion 
is approved. The bill is reported favorably to the full 
committee with thanks to my colleagues for their support, their 
input, cooperation. That concludes today's markup, and the 
subcommittee stands adjourned, but we will reconvene right 
after votes. Not right now, Mr. Acevedo? After votes. Darn it. 
Too bad. We could get some stuff done before. Who needs those 
witnesses.
    No, just kidding. Thank you very much. So the subcommittee 
is adjourned, and we will come back after the votes. Thank you.

    [Whereupon, at 2:10 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              


                                 <all>
</pre></body></html>
